<html>
<title> - [H.A.S.C. No. 115-16] CRAFTING AN INFORMATION WARFARE AND COUNTER-PROPAGANDA STRATEGY FOR THE EMERGING SECURITY ENVIRONMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







 
                           [H.A.S.C. No. 115-16]

                    CRAFTING AN INFORMATION WARFARE
                    AND COUNTER-PROPAGANDA STRATEGY
                 FOR THE EMERGING SECURITY ENVIRONMENT

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 15, 2017


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

                                     
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-048                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
BRAD R. WENSTRUP, Ohio               RICK LARSEN, Washington
RALPH LEE ABRAHAM, Louisiana         JIM COOPER, Tennessee
LIZ CHENEY, Wyoming, Vice Chair      JACKIE SPEIER, California
JOE WILSON, South Carolina           MARC A. VEASEY, Texas
FRANK A. LoBIONDO, New Jersey        TULSI GABBARD, Hawaii
TRENT FRANKS, Arizona                BETO O'ROURKE, Texas
DOUG LAMBORN, Colorado               STEPHANIE N. MURPHY, Florida
AUSTIN SCOTT, Georgia
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................    13
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Armstrong, Matthew, Associate Fellow, King's Centre for Strategic 
  Communications, King's College London..........................     3
Lumpkin, Michael D., Principal, Neptune..........................     5
Thomas, Timothy L., Senior Analyst, Foreign Military Studies 
  Office, Fort Leavenworth.......................................     7

                                APPENDIX

Prepared Statements:

    Armstrong, Matthew...........................................    37
    Lumpkin, Michael D...........................................    50
    Stefanik, Hon. Elise M.......................................    35
    Thomas, Timothy L............................................    62

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    81
    
    
    
    

CRAFTING AN INFORMATION WARFARE AND COUNTER-PROPAGANDA STRATEGY FOR THE 
                     EMERGING SECURITY ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                         Washington, DC, Wednesday, March 15, 2017.
    The subcommittee met, pursuant to call, at 3:16 p.m., in 
room 2118, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. The subcommittee will come to order.
    I would like to welcome everyone to this hearing of the 
Emerging Threats and Capabilities Subcommittee of the House 
Armed Services Committee on the very timely topic of 
information warfare and counter propaganda. Although the 
subcommittee has met several times already in closed classified 
sessions, today is our first open and public hearing. As such, 
I would like to take a moment to welcome and thank our new and 
returning subcommittee members.
    Our topic today is incredibly important. Cyber warfare and 
influence campaigns that are being waged against our country 
represent a national security challenge of generational 
proportions. In talking about influence campaigns, we too often 
focus on the digital and technical aspects on the internet and 
social media. While those aspects are critical and indeed have 
served as an accelerant to speed up communications and effects, 
we should remember to take a step back and keep in mind that 
information warfare is about information, not just the medium. 
And our understanding of this form of warfare should also 
include the psychological, cognitive, and cultural aspects of 
the messages bombarding us from all sources.
    I would like to read a quote I recently reviewed. Quote, 
``There has never been a time in our history when there was so 
great a need for our citizens to be informed and to understand 
what is happening in the world. The cause of freedom is being 
challenged throughout the world today and propaganda is one of 
the most powerful weapons they have in this struggle. Deceit, 
distortion, and lies are systemically used by them as a matter 
of deliberate policy,'' end quote.
    Those were the words of President Harry Truman in 1950. He 
spoke of a conflict of ideas that is still occurring today. 
And, unfortunately, it is a conflict we have largely ignored. I 
chose this quote as a reminder that information warfare and 
propaganda efforts are not new. The tools have changed, but 
enemy doctrine has not. Information warfare is shaping the 
international environment. There may not be overt and open 
fighting, but there is certainly open conflict.
    Information warfare is being waged in an aggressive ongoing 
competition over territory, resources, and people in the 
Crimea, in the South China Sea, in Iraq, and in Syria. People 
are being desensitized to the reality of actions around them, 
increasing the likelihood of misunderstanding and 
miscalculation.
    Our core values of truth, democratic principles, and self-
determination are under assault. While the Department of 
Defense [DOD] plays a critical role in this form of warfare, it 
cannot bear responsibility alone. Countering adversarial 
propaganda requires a whole-of-government strategy using all 
instruments of national power to harness the authorities, 
tools, and resources required to mitigate and marginalize its 
harmful effects. With this in mind, the National Defense 
Authorization Act [NDAA] last year authorized and expanded the 
mission of the State Department's Global Engagement Center 
[GEC] to counter state-sponsored propaganda efforts such as 
Russia, China, Iran, and North Korea.
    We look forward to continuing to work with the center and 
the Department of Defense this year as we craft an information 
warfare and counter-propaganda strategy for an emerging 
security environment.
    Before I turn to the ranking member for his comments, I 
would like to highlight a few questions for our witnesses and 
members to consider as we proceed throughout the hearing. 
First, do we have an adequate strategy for countering the 
blatant lies and mistruths being promulgated by sophisticated 
nation-state actors that have both resources and political 
will? Second, do we truly understand the information warfare 
and propaganda strategies of our enemies, be they state or 
nonstate actors? And lastly, since the United States remains a 
technological leader and innovator with tremendous creativity, 
how do we better harness our advantages to counter our 
adversaries?
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 35.]
    Ms. Stefanik. In the future, when the ranking member 
arrives, I will turn to him for his opening statements, but in 
the meantime, I am going to introduce our witnesses.
    We welcome three distinguished witnesses here this 
afternoon. First, the Honorable Matt Armstrong, an associate 
fellow at the King's Centre for Strategic Communications, 
King's College London. Next, the Honorable Michael Lumpkin, 
formerly an Assistant Secretary of Defense and coordinator of 
the Global Engagement Center, now a principal at Neptune 
Strategies. And finally, Mr. Timothy Thomas, a senior analyst 
at the Foreign Military Studies Office at Fort Leavenworth, and 
the author of several books and articles on Russian and Chinese 
information operations [IO] and cyber policy, one of which I 
have here.
    Welcome to all of our witnesses. I would like to remind you 
that your testimony will be included in the record, and we ask 
that you summarize key points from that testimony in 5 minutes 
or less. We will wait for Mr. Langevin's arrival, but in the 
meantime, Mr. Armstrong why don't you go ahead with your 
opening statement.

STATEMENT OF MATTHEW ARMSTRONG, ASSOCIATE FELLOW, KING'S CENTRE 
      FOR STRATEGIC COMMUNICATIONS, KING'S COLLEGE LONDON

    Mr. Armstrong. Thank you. Chairwoman Stefanik, 
distinguished members of the subcommittee, thank you for this 
opportunity to speak on information warfare and countering 
propaganda. This is an important conversation as information 
and informational activities create both opportunities and 
threats to our Nation's physical, societal, and economic 
security. This is a strategic problem requiring a strategic 
review of not just the threat, but also of our constraints. We 
may develop good tactics, but any success from these will be 
undone if we fail to get the strategy right, as well as 
properly align our efforts toward our objectives. Be confident 
that our adversaries are doing this realignment and using our 
doctrine and our public writings as their starting point.
    The information domain is not a nuance at the margins, but 
a central facet of international affairs. We have known this 
for a long time, even if we need constant reminding. A 1918 
report by the U.S Army General Staff recognized that in the, 
quote, ``strategic equation of war, there are four factors: 
Combat, economic, political, and psychologic, and that the last 
of these is coequal with the others,'' end quote.
    Today, we refer to this as the DIME model of national 
power: diplomacy, information, military, economic. A July 1945 
report from the State Department recognized that the, quote, 
``nature of present day foreign relations makes it essential 
for the United States to maintain informational activities 
abroad as an integral part of the conduct of our foreign 
affairs.'' Two years later, a joint congressional report 
elucidated on this point: ``Europe today has again become a 
vast battlefield of ideologies in which words have replaced 
armaments as the active elements of attack and defense,'' end 
quote.
    Today, as the traditional barriers of influence and 
disruption are obliterated by modern communication and 
transportation networks, the role of information is more 
important than ever.
    Understanding and elevating the appreciation of the 
informational or psychological affect of our words and deeds 
can make for more effective, more enduring, and less expensive 
outcomes. Every situation is unique and sometimes you need to 
put two in the heart and one in the mind, but between 
increasingly transparent battlefields and adversaries 
intentionally operating below or outside of our escalation 
ladders, we must be more adept in this environment. We may call 
this affair information warfare, but this is too narrow and too 
shallow, and it inhibits appreciating the psychological affects 
of actions. It also encourages the false concept of a battle of 
narratives as if there is a magic combination of nouns and 
verbs that will win the day. We may use more inclusive labels, 
like political warfare or hybrid warfare, two terms with subtle 
yet possibly useful distinctions.
    Putting aside the label, we fail to appreciate how the 
success of our adversary's propaganda supporting their agenda 
or targeting our activities, whether military, economic, or 
political, often rest on our credibility. Its effectiveness is 
often influenced by the degree to which people believe what we 
say, how much they trust what we do, and how the audience 
perceives the two as consistent and aligned.
    Abroad, we face a situation which our adversaries are often 
perceived as more credible than us as they spotlight, exploit, 
and often outright manufacture gaps between what we say, what 
we do, and our national values. Proof of this is when our 
adversaries are given the benefit of the doubt, while our word 
is questioned, our actions subjected to charges of hypocrisy 
and aggression. This is magnified by failing to understand the 
local information environments.
    There are several challenges hindering our credibility and 
the ability to be effective in today's environment. First, our 
messages and actions are generally disunified. We have a 
competitive advantage in terms of resources, people skills, and 
scale. Yet our various government departments and agencies are 
organized in such a way that makes coordination nearly 
impossible.
    Beyond the obvious, this includes failing to understand, 
coordinate, or support programs that may develop and strengthen 
local defenses, even inoculation, against adversarial 
influence. Lesser known examples include fish and wildlife 
services, helping game wardens in Africa, exchange programs, 
and the U.S. Navy tenders helping local harbor masters and 
mechanics. And then there is the damaging divide between 
defense public affairs and other defense information 
professionals, as well as the segregation of public diplomacy 
inside the State Department.
    The lack of coordination and bureaucratic cultural divides 
contribute to our second challenge, which is that our response 
to adversarial propaganda is almost invariably reactionary. 
When our adversaries explain their actions to the world or make 
claims about us, we find ourselves scrambling to prove them 
wrong. This keeps us on our heels and requires us to overcome 
the narrative set by others. It also means limited 
consideration of the psychological affect of actions, which the 
Chinese appear to be overcoming in their recent reorganization 
of their cyberspace operations forces.
    The third challenge is the militarization of our foreign 
policy. In the absence of a clear strategy and organizing 
principles, the Department of Defense has by default taken the 
lead in much of our foreign policy efforts. The very term 
``strategic communication'' reflects this role as it was born 
out of the need to fill a gap left by the State Department. But 
placing our military as our primary implement of foreign policy 
also promotes a perception that we are an insecure Nation.
    We have remarkably little relevant experience in combatting 
the political warfare being waged against us. We may imagine 
that the United States Information Agency [USIA] and the Active 
Measures Working Group are guideposts, but they were never 
intended or fit for purpose for this action and they were 
relatively small and reactionary. Neither is a useful model for 
proactive and unified defense, let alone offense.
    We must change our mind-set about adversarial propaganda 
and subversive actions, especially those carried out below or 
outside the military's phasing construct. This starts with 
changing the language we use. We need to think and speak in 
terms of undermining adversarial psychological influence which 
will guide us toward preemptive behavior and messages. We need 
to think and speak in terms of a communication environment 
which will guide us toward a preemptive interactivity that can 
establish, preserve, and strengthen our credibility so that we 
set the narrative that must be displaced by our adversaries. We 
must think about why adversarial propaganda has traction, and 
accept that we cannot bomb our way to success. We must organize 
in a way that aligns our efforts for credible, smart, 
preemptive action and swift, credible, trusted reactions.
    In addition to internal reorganizations addressing cultural 
divides, departments and agencies beyond Department of Defense 
and State bring skills and expertise to this struggle.
    I am thankful that this committee has convened this hearing 
as I am thankful for past amendments from this committee that 
have affected the State Department, but in many ways this 
discussion is happening in a vacuum. Are other committees 
exercising their oversight to inquire about this topic, set 
priorities, or hold their respective departments and agencies 
accountable? And we must understand the role of society in our 
foreign policy and the permeability of our borders and the 
marketplace of loyalty, which I described elsewhere. There is a 
vulnerability, not just political support for our efforts, but 
what might be considered within organizational security 
parlance as insider threats. Consider Major Nidal Hasan, Jihad 
Jane, and other so-called lone wolves who are inspired often 
through sympathy or empathy with our adversaries.
    I will close with another quote, this one from 1963: ``Some 
day, this Nation will recognize that global nonmilitary 
conflict must be pursued with the same intensity and 
preparation as global military conflicts.'' Unfortunately, that 
day has yet to come, but I hope this hearing is the start of 
setting us on the right path. Continuing to get this wrong is a 
threat to our national security, to our economic growth, and to 
our very standing as a world leader.
    Thank you again for the opportunity to discuss this 
important topic. I look forward to your questions.
    [The prepared statement of Mr. Armstrong can be found in 
the Appendix on page 37.]
    Ms. Stefanik. Thank you, Mr. Armstrong.
    Mr. Lumpkin.

      STATEMENT OF MICHAEL D. LUMPKIN, PRINCIPAL, NEPTUNE

    Mr. Lumpkin. Chairwoman Stefanik, Ranking Member Langevin, 
and distinguished members of the committee, thank you for the 
opportunity to be here today as a private citizen in an 
individual capacity. Thank you very much.
    I trust my experience as a career special operations 
officer, Assistant Secretary of Defense for Special Operations, 
and special envoy and coordinator at the Global Engagement 
Center will be helpful in providing perspective on the current 
state of the U.S. Government's [USG's] strategy, capabilities, 
and direction in information warfare and counterpropaganda.
    The previous administration and the 114th Congress 
demonstrated clear commitment to this issue, as evidenced by 
President Obama's executive order that established the Global 
Engagement Center and the 2017 National Defense Authorization 
Act that expanded the center's mission.
    The NDAA expanded the GEC's mandate to include counter-
state propaganda, as Chairwoman Stefanik mentioned, and 
disinformation efforts. This is well beyond the original 
charter which limited it to diminishing the influence of 
terrorist organizations such as the Islamic State of Iraq and 
Syria [ISIS] in this information domain. This is a big step in 
the right direction, but the sobering fact is that we are still 
far from where we ultimately need to be to operate in the 
modern information environment.
    As I said, I am very pleased to be joined by Matt and Tim, 
two of the most experienced people in this space, who I think 
collectively, we should be able to answer most of this 
committee's questions.
    Since the end of the Cold War with the Soviet Union, which 
was largely--arguably, the last period in history when the U.S. 
successfully engaged in sustained information warfare and 
counter-state propaganda efforts, technology and how the world 
communicates has drastically changed. We now live in a 
hyperconnected world where the flow of information moves in 
real time. The lines of authority and effort between public 
diplomacy, public affairs, and information warfare have blurred 
to the point where, in many cases, information is consumed by 
U.S. and foreign audiences at the same time via the same means.
    To illustrate this fact, as this committee is aware, it was 
a 33-year-old IT [information technology] consultant in 
Abbottabad, Pakistan, that first reported the U.S. military 
raid against Osama bin Laden in 2011 on Twitter. This happened 
as events were still unfolding on the ground and hours before 
the American people were officially notified by the President 
of the United States address.
    While the means and methods of communication have 
transformed significantly over the past decade, much of the 
U.S. Government thinking on shaping and responding in the 
information environment has remained largely unchanged, to 
include how we manage U.S. Government information dissemination 
and how we respond to the information of our adversaries. We 
are cognitively hamstrung for a myriad of reasons, to include 
lack of accountability and oversight, bureaucracy resulting in 
insufficient levels of resourcing, and inability to absorb 
cutting-edge information and analytic tools, and access to 
highly skilled personnel. This while our adversaries are 
increasing investment in the information environment, while not 
being constrained by ethics, the law, or even the truth.
    The good news is that we have good people working this 
effort. The workforce is committed and passionate and recognize 
why this is important and why we as a nation need to get it 
right.
    Again, thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Mr. Lumpkin can be found in the 
Appendix on page 50.]
    Ms. Stefanik. Thank you, Mr. Lumpkin.
    I now recognize Mr. Thomas.

    STATEMENT OF TIMOTHY L. THOMAS, SENIOR ANALYST, FOREIGN 
           MILITARY STUDIES OFFICE, FORT LEAVENWORTH

    Mr. Thomas. Chairwoman Stefanik, distinguished members of 
the House Subcommittee on Emerging Threats and Capabilities, 
thank you for the opportunity to appear before you today to 
talk about Russian concepts and capabilities for information 
warfare.
    By way of disclaimer, while I work for the Department of 
the Army as a senior analyst at the Foreign Military Studies 
Office, which does unclassified work, I am appearing today in 
my capacity as a subject matter expert and not as a person who 
can speak in an official capacity about Army or defense policy. 
As such, the views I express today are my own and do not 
necessarily reflect the views of the Department of the Army or 
Department of Defense.
    Russia's information warfare approach is holistic. It is 
focused not only on media and propaganda, but on information 
technologies that fit weaponry as well. Ever since the 1990s, 
Russia has divided its information warfare concepts into two 
parts: Information technical and information psychological. 
Social media and cyber have tended to blend the two and caused 
a significant change in how Russia views the emerging trends in 
the character of warfare.
    First, they note that nonmilitary activities, such as media 
use or information deterrence capabilities, are being used more 
often, they say by a ratio of four to one, than military ones.
    And second, they note that information technologies reduce 
distance and make remote engagement, whether it be by 
international media, infiltration abroad, or the use of high-
tech weapons to be considered as a principal tactic or means.
    Forecasts are made after these trends are studied that 
reflect how conflict might unfold, which appears to be the 
general staff's development of a new type warfare scenario, the 
diagram of which was part of the written testimony. This new 
type warfare includes disorienting a victim state's leadership, 
creating dissatisfaction in the populace, intensifying 
diplomatic pressure and propaganda, applying cyber attacks and 
software effects, covertly deploying special forces, and using 
weapons based on either new physical principles, robotics, or 
other issues.
    After trends and forecasts are made, a military strategy 
encompassing all aspects of military and state activity is 
established to take advantage of the forecast. An information 
strategy, according to one Russian source, is a state's use of 
information technologies and effects to attain information 
superiority over competitors in several areas. Evolving science 
and technology developments potentially alter the correlation 
of information-based forces along strategic sectors or in 
space.
    Finally, forms and methods of employing the strategy are 
developed. The chief of the Russian General Staff Valery 
Gerasimov has stated often that the production of new forms and 
methods of warfare is an urgent task for military academies to 
develop. A form is an organization which in regard to 
information warfare could include international media elements 
such as Russia Today [RT] or Sputnik, or military developments, 
such as the creation of science companies or information 
operation forces.
    These forms or organizations implement methods. Methods are 
composed of two parts: Weaponry and military art. Weaponry can 
include hackers, reflexive control techniques, trolls, 
disinformation, deterrence capabilities, and other agents of 
destruction or influence. Military art includes the use of 
indirect and asymmetric capabilities to achieve specific goals, 
such as the exploitation of the West's free press or an 
indirect attack on the cyber infrastructure of another nation. 
Russian's excellent contingent of algorithm writers ensures 
that the nation will be strong for years to come in writing 
software as weapons that could eavesdrop, persuade, or destroy.
    To summarize, the effort is holistic, it follows trends, 
makes forecasts, strategies, and force correlations, and 
develops forms and methods to implement the strategy.
    I thank you for your attention.
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 62.]
    Ms. Stefanik. Thank you, Mr. Thomas.
    My question, I actually would like to start with you in 
regards to your testimony. When it comes to Russian propaganda 
and disinformation activities against NATO [North Atlantic 
Treaty Organization] and the EU [European Union], how damaging 
are their propaganda campaign against these organizations? And 
what impact is that having on U.S. national security and 
economic ties to Europe? And then the second part of my 
question is, knowing that I would like to focus on Russian 
propaganda dealing with NATO and the EU, can you also add 
another layer, you referenced the exploitation of the Western 
free press, how is that a part of their broader propaganda 
strategies?
    Mr. Thomas. Thank you. The first part of your question with 
regard to propaganda, propaganda is usually associated with 
emotional content. It varies from what you might call the 
disinformation aspect, which is designed to focus more on the 
logic of decision making. So what you will have as a 
combination of these two, the emotional aspect is aimed, I 
believe, more at the population of the country, whereas the 
disinformation aspect is aimed more at decision makers within 
the EU or NATO. The final goal would be, clearly, to disrupt or 
destroy the relationships among NATO and members of the EU.
    The second part of your question which addressed Western 
thought and how Russia might take advantage of it, back in 
1946, George Kennan noted that Russians do not believe in 
objective truth. If you fast forward ahead to about 2014, and 
you listen to some of their commentators, like Dmitry Kiselyov, 
Kiselyov noted that objectivity is a myth being imposed upon 
us. So what you have within the Russian information domain, if 
you want to call it that, is no real truth. You just have the 
ability to create an alternate reality, which doesn't coincide 
at all with the Western understanding of information in a free 
press.
    Perhaps the best example of that was the downing of the 
Malaysia airliner. Immediately, we had our own understanding of 
what had happened. We had the intercepts. We had the images of 
the air defense platform leaving the area, yet for the next 3 
or 4 years, we listened incessantly to Russian alternate views 
of what had happened, with the last one coming the day before 
the Netherlands released their report. They attempted to create 
an alternate reality. This seems to be the focus of the 
propaganda effort there as they study us and they study 
audience behavior.
    Thank you.
    Ms. Stefanik. I want to broaden my followup to Mr. 
Armstrong and Mr. Lumpkin. So what strategies do we need to 
pursue to counterbalance the example that Mr. Thomas just laid 
out?
    Mr. Lumpkin. I think we need to do--because we can develop 
strategies, we have to have a strategy for respective 
countries. One thing that I have learned in my time is that 
like all politics is local, all messaging is local as well. So 
a strategy that works for Russia, for example, countering their 
disinformation propaganda efforts, may or may not work in 
another nation, but each one has to be tailored. For example, 
if you were going to do counter-propaganda disinformation 
against Russia, you would want it to have a different strategy, 
for example, with Iran or any other nations that we were going 
to work with. And it is not just a nation-state issue; it is 
also true against violent extremist groups as well.
    So I think the key is you have to understand the audience, 
have clear goals set out of what you want to achieve, and then 
develop a strategy that is unique to that particular audience.
    Ms. Stefanik. And that is something that Russia does, 
unfortunately, effectively. They have country-specific 
strategies when it comes to their disinformation and 
propaganda.
    Mr. Lumpkin. Absolutely. And I do believe that we have to 
think about information in the same way when you are going 
against other nation-states' efforts.
    Ms. Stefanik. Mr. Armstrong.
    Mr. Armstrong. So to add to Michael's comments, we need to 
understand the local information environment. I think one of 
the problems we suffer is that we mirror-image. We pretend that 
the local audiences know what we know, that they have the same 
access to the information, and that is simply often not the 
case. We have to pay attention that the Russians will make 
fake--not just deliver fake stories, whether it is a rape or 
some other abhorrent action to spur up local concerns and 
issues, but they will put fake experts on the air and they will 
create fake groups.
    So it is one thing for us to come from the outside and 
probe into a country and say, this is what we need to say and 
what we need to do, but we need to help those nations and those 
markets, if you will, understand and be more critical about the 
information that they are getting.
    One of the things that the Russians take advantage of is 
the lack of critical thinking. They don't want a critical 
thinker. A critical thinker is not the audience for a Russian 
media product. That is why they will throw out three or four, 
five, six, in the case of MH17, eight different stories lines 
at one time, maybe even within the same hour of broadcast, 
because it will resonate with different people in different 
ways. But they also have a tolerance for failure. So they will 
drop a story line if it is not working or they will drop an 
effort.
    And that is one of the challenges that we have is that we 
have almost zero tolerance for failure. So we delay, we wait 
until we have it perfect, whereas our adversaries are spinning 
and trying and trying and trying until something actually 
works. So I would say we need to partner with local capacity 
and help develop local capacity.
    Ms. Stefanik. Thank you, Mr. Armstrong.
    I now recognize Ms. Speier.
    Ms. Speier. Thank you, Madam Chair. I want to thank you for 
having this hearing. I think this is really a critical area 
that we spend really too little time and underfund our efforts 
mightily.
    I was struck when reading through the list of Russian 
military tactics for offensive media campaigns: Lies for the 
purposes of disinformation; focusing on the negative, which is 
more readily accepted than the positive; simplification, 
confirmation, and repetition; introducing taboos on categories 
of news. It sounds to me a lot like the 2016 Presidential 
campaign.
    Now, don't get me wrong. I do firmly believe, based on all 
the available evidence, that Russia played a heavy hand as 
well, but as we have seen this behavior during the campaign 
continue in the Presidency, I am forced to wonder how much 
additional damage has been self-inflicted.
    So, Mr. Thomas, would you assess that the undermining of 
public confidence in domestic and international institutions, 
attacks on the free press, are all consistent with Russian 
information warfare objectives?
    Mr. Thomas. Yes, I think that they are consistent. I think 
what you see when you listen to the Russians, is at home they 
have what I would call an echo chamber in that everything they 
say is being said by the same people over and over. The way 
they have tried to handle their audience vulnerabilities is 
they have stopped allowing surveys like we would have with a 
Gallup Poll so that they can limit vulnerabilities to that 
audience. Meanwhile, as Matt and Michael have said, they are 
studying the vulnerabilities in other countries to the best of 
their ability to find those--they look at the Gallup Polls and 
find where they might be able to place some important 
information.
    Ms. Speier. So if you were to identify what our 
vulnerabilities are as seen by the Russians, what would they 
be?
    Mr. Thomas. I don't think I would be a person who could 
answer that particular question.
    Ms. Speier. Do any of you have a comment on that? Mr. 
Armstrong.
    Mr. Armstrong. So I think it is really important. I think 
there are some good, obvious examples over in Europe right now. 
But with regard to the United States, I had a conversation with 
a senior Russian involved in their information activities, and 
they made a comment that there would not be a market in the 
United States for RT if the American media was doing their job. 
And I think there is some legitimacy to that, is that the 
polarization of our news has created some gaps and has--there 
is an interesting thing that RT has done, I believe. Where we 
perceive a linear spectrum, there is a far left and a far 
right, RT has managed to bend that so that they are addressing 
the far right and the far left simultaneously.
    Now, they are generally on the fringes and it is easy for 
us to overestimate their impact, but their true impact, I 
think, is their seepage of their stories, of their messages, of 
their questioning that gets into our conversations. So I think 
that's where we should be looking at. But RT is not alone in 
that space.
    Ms. Speier. So Mr. Clapper has suggested, as you pointed 
out in your testimony, re-creation of the USIA, although I 
guess one of you indicated not in its original form. I think 
that was you, Mr. Lumpkin. How would you see an agency that is 
robust in terms of putting out information in localities around 
the world, what would that look like to you?
    Mr. Lumpkin. Just to kind of follow up on my written 
statement is, I do believe that, based upon the complexity of 
the information environment, the numbers of actors and players 
within the U.S. Government, that there is a lot of people 
working hard, everybody's rowing the boat, not necessarily in 
the same direction. And I do believe that the creation of the 
GEC, the Global Engagement Center, was a step in the right 
direction on trying to coordinate, synchronize, and ultimately 
lead U.S. Government efforts.
    Ms. Speier. But you said that, in the end, was suggestive.
    Mr. Lumpkin. Yes, and I believe that. Unfortunately, it is 
too mired in the bowels of the bureaucracy that it doesn't have 
the ability to direct the interagency nor advocate for 
resourcing. I believe if you elevated an entity to something 
similar to the Office of the Director of National Intelligence 
that could effectively coordinate and direct the interagency, 
you would be able to garner more resources, better synchronize 
the efforts, and have better end-states over U.S. information 
efforts against----
    Ms. Speier. Okay. I have 15 seconds, and I have one more 
question for you, Mr. Lumpkin. Do you believe the hiring freeze 
is having a deleterious effect on our ability to respond?
    Mr. Lumpkin. I think it will. I do believe it will.
    Ms. Speier. Thank you. I yield back.
    Ms. Stefanik. I now recognize Dr. Abraham.
    Dr. Abraham. Thank you, Madam Chair. And thank you for the 
very sobering testimony. I hope we and the Department of 
Defense take heed.
    It appears that Russia and other state players are--have a 
lot of smoke and mirror-type technology where, unfortunately, 
we in America have to adhere just because of moralistic 
standards to a more rigid structure.
    Mr. Lumpkin, you referenced a particular strategy for a 
particular state or a particular country. The problem is, as we 
all know, is that now there is a mixture and a menagerie of all 
these states and terrorist organizations that sometimes 
certainly cloud the picture. And I totally agree that, 
unfortunately, the way our laws and somewhat our citizenship, 
as far as being basic good people, we are restricted somewhat 
to being more of a reactionary than a proactive state. And I 
think we saw that in the OPM [Office of Personnel Management] 
breach.
    The question I have is why has the USG been unable to unify 
and orient its various interested organizations and 
capabilities to compete in this broader information 
environment? What is the disconnect there?
    Mr. Lumpkin. I wish I could say that there was one thing 
that was the causal agent, but if we--I have had many jobs in 
my life. The most complicated and complex environment I ever 
operated in was being the special envoy and the coordinator at 
the Global Engagement Center, because the stakeholders are 
vast, budgets are all over the map, authorities are not aligned 
with the current environment between public affairs, 
information operations, and public diplomacy and--nor are the 
efforts. And I think it is, we are at the point where we need 
to take a step back, especially while technology in the world 
is continuing to advance and become more hyperconnected, to 
look at how we can effectively do this.
    But I do believe we can have an overarching strategy in 
organization structure and then come up with substrategies for 
specific countries or groups.
    Dr. Abraham. So do you think maybe the DOD needs a global 
nonkinetic-type coordinator to kind of herd the cats?
    Mr. Lumpkin. Well, I don't know that it should be DOD that 
is leading the effort, and here is why: Because the information 
operations efforts are generally focused on title 10, support 
of military objectives.
    Dr. Abraham. Right.
    Mr. Lumpkin. And this is much larger than the military. 
They are a key stakeholder and a key component and probably the 
best resourced, but that doesn't mean that they should be 
leading the effort, because there are limitations to their 
authorities on how and where they can operate.
    Dr. Abraham. That is a little bit unsettling. The next 
question for you again, Mr. Lumpkin. And, Mr. Armstrong, please 
chime in, and Mr. Thomas, if you have comments.
    What do you see as the major challenges for the Department 
of Defense today in conducting information operations and 
counter-propaganda within the structure that they now have?
    Mr. Lumpkin. I think that they continue to have resourcing 
challenges. Again, lots of good people working on this issue, 
just not enough of them. I think that is one part that they 
have got as far as people. There is the budget levels. As Mr. 
Armstrong mentions, there is also the tolerance for risk. We 
have to increase our acceptance of a risk and be able to 
iterate very rapidly when we do a--try to come up with a 
messaging program or strategy and we find it not effective, we 
have to iterate and move very rapidly. We have to build 
agility, which means that most of our work has to be 
underpinned with data analytics. It has to be an analytics-
based structure, which means we have to have the analytic 
tools, capabilities, and access to talent that knows how to use 
them.
    Dr. Abrahams. And other state players, such as Russia, they 
don't even pay attention to the analytics; they just kind of 
throw them out of the window and say they really don't exist at 
all sometimes.
    Mr. Lumpkin. I am sure that is the case, but I would argue 
that because our adversaries have a very high threshold for 
risk, they can get it wrong a lot and still just inundate the 
airwaves and the information space.
    Dr. Abrahams. Anything to add, Mr. Armstrong, right quick?
    Mr. Armstrong. I do, thank you. So I would rephrase the 
same thing that Mr. Lumpkin said: There is an acceptance of a 
threat that is absent, there is a prioritization that is 
absent, and there is a strategy that is absent. So put another 
way, the combatant commander or the commander on the ground is 
going to be more concerned with LOAC, law of armed conflict, 
rather than the informational or psychological effect of an 
activity, which means in this transparent battlefield 
environment, the psychological effect of an action may be more 
narrow than what the legal--what the law allows. But yet they 
will have the lawyer there rather than the psyop or information 
officer there.
    Dr. Abrahams. Okay. Thank you.
    Thank you, Madam Chair.
    Ms. Stefanik. Thank you.
    I now recognize the ranking member, Mr. Langevin, for his 
opening statements and then the opportunity to ask questions.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Madam Chair. And welcome to our 
witnesses here today. I apologize that I was late. My plane 
just landed a little while ago, and got here as quick as I 
could. But I am sorry I missed your opening statements, but we 
have your statements for the record, and I appreciate your 
being here today.
    So, Mr. Lumpkin, in particular, it is nice to see you 
again. Welcome back. And as the former Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict as 
well as the prior special envoy of the Global Engagement Center 
at the Department of State, you certainly have valuable 
insight. I know that we have benefited, the government can 
benefit from his work to understand information operations 
conducted by our adversaries and improve U.S. efforts to 
counter propaganda and other activities under the IO umbrella.
    Our other two witnesses, of course, also bring 
extraordinary perspectives. Mr. Armstrong was previously with 
the Broadcasting Board of Governors [BBG], and Mr. Thomas has 
spent his career in the IO fields and earned his expertise on 
Russia through extensive study. So I appreciate your 
perspectives and taking the time to be here today.
    As the witnesses' robust backgrounds demonstrate, U.S. 
information operations require what I believe is a whole-of-
government approach. This subcommittee has worked tirelessly on 
U.S. IO policy and capabilities over the years, and more 
recently focused on fine tuning our ability to counter 
propaganda. One such effort is a provision in the National 
Defense Authorization Act for Fiscal Year 2017 that expands the 
scope of the Global Engagement Center to include countering 
propaganda of nation-state actors, which is the focus of 
today's hearing.
    Nation-states, like the Russian Federation, use the 
information environment outside of a combat zone in a strategic 
effort to intimidate, to undermine, and control allies, as well 
as stymie U.S. objectives. They are doing so in an increasingly 
aggressive and overt manner as evidenced by Russia's recent 
acknowledgment of the formation of new IO troops.
    IO is only one component of Russia's strategy to achieve 
objectives, but their tactics, their techniques and procedures 
often executed with complete disregard for international norms 
have proven effective at achieving favorable conditions for 
their underlying intentions and their motivations.
    The United States is not a nation that will disregard the 
law or compromise basic values. Data collection, analysis, and 
storage required to inform our own counter-propaganda and 
information operations writ large, especially outside the 
combat zone and using social media, must continue to comply 
with domestic and international law. The United States overt 
messaging must always be delivered consistently and maintain a 
truth and integrity.
    In accordance with our values, we must improve the U.S. 
Government and our allies' ability to counter IO of other 
actors and take back the narrative in order to promulgate 
truth. This effort will require us to ask hard questions, such 
as, is the government organized for and prioritizing effective 
IO? Is the Department of State force structure which--I am 
sorry. Is the Department of Defense force structure, which 
currently aligns IO capabilities to many commands, conducive to 
effective employment of information operations in concert with 
other interagency efforts outside of an area of active 
hostilities?
    The U.S. must leverage technological advancements and other 
new capabilities in a timely manner. The Department of Defense 
must also be able to effectively employ such capabilities with 
operational funding authorities that allow for flexibility in 
an ever-evolving information environment while still 
maintaining transparency and oversight of activities.
    Finally, and most importantly, U.S. strategies and military 
commander objectives for addressing threats must be realistic 
and holistic. We must leverage all tools at our disposal for 
disruption, deterrence, and response, while mitigating conflict 
escalation in the development of ever more pernicious 
techniques for conducting influence campaigns.
    So with that, I will stop there and go to questions.
    Ms. Stefanik. Yes.
    Mr. Langevin. Okay. So again, thanks to our witnesses.
    Mr. Lumpkin, if I could, based on your experience in the 
DOD, what role should Cyber Command [CYBERCOM] have in 
countering IO of nation-state military or nonmilitary actors 
outside of an area of hostilities? And does that change if the 
IO is being conducted on U.S. soil? And is there more that can 
be done to leverage the capabilities of this command consistent 
with international and other laws?
    Mr. Lumpkin. I believe that CYBERCOM is a key player in 
this space. When you look at--and this is why in the language 
of the 2017 National Defense Authorization Act it was critical 
that it said countering--to go against--counter-state 
propaganda and disinformation efforts. It allowed us to think 
differently about the problem set, to look at this--this isn't 
a tit for tat in the information space, but rather looking at 
the entire tools of government that can be applied against this 
problem set. And I think CYBERCOM is a key player in this 
space.
    Now, I do recognize and appreciate the lines of authority 
of operating domestically for CYBERCOM, and I respect those 
lines. But that said, it is becoming much more difficult to see 
where information starts and where it stops. It is very 
difficult to see whether somebody is an American citizen when 
they are using a computer in a nation outside of the United 
States. There is no passport with an IP [internet protocol] 
address. So as we look to what affects U.S. citizens and what 
affects domestic policy, the lines are very gray and very 
blurred right now.
    Mr. Langevin. Thank you.
    Mr. Thomas, you stress in your testimony that Russia 
perceives it is under attack from the West. If the U.S. ramps 
up its own IO and other efforts to counter their indirect 
warfare activities, how do we do so in a manner that decreases 
the risk of conflict escalation and modern warfare arms race?
    Mr. Thomas. Well, the first--the very first thing that I 
would be thinking of is for us to counter what Russia is doing, 
you really have to understand what they are doing. And what I 
mean by that is the tools that they have, the tools they use 
are different than some other nations, specifically because of 
their ability to use half truths or lies and get away with it, 
because they have, as we have said, an echo chamber that 
everybody's kind of on the same page when you listen to the 
evening news. But you have to understand what they mean when 
they say, I am employing information deterrence, when they say 
I am employing reflexive control, when I am using trolls. 
People really have to understand the lay of the land.
    Probably the best issue you can think of is if two teams 
are playing basketball and--we are into the Final Four here of 
March Madness--one team is not practicing against its own 
offense in practice. It is practicing against what the other 
guy is set up for offense and what kind of defense they play. 
And it is kind of the same way with looking at Russian 
propaganda and disinformation activities. You have to 
understand what it is objectively that sits behind the way they 
do business. It is different than us. And once that is 
understood, you have a base from which you can then begin to 
respond. Thank you.
    Mr. Langevin. Thank you.
    Okay. And to all of our witnesses, in your opinion, what 
are the most effective capabilities and activities the U.S. can 
employ to deter, disrupt, and counter IO of nation-states, 
specifically propaganda, for deterrence and disruption? Is it 
disruption or denial of service to our adversary or 
dissemination of truthful narrative or are sanctions outside of 
the IO space most effective, for example, sanctions?
    Mr. Armstrong. So if--before I answer that question, if I 
can go back to your previous question to Mr. Thomas. I think 
there is a challenge here that we must not be accepting the 
Russian narrative, that they say that they are perceiving being 
attacked by the West is part of Putin's game. So I think part 
of the problem is we are too quick to accept their narrative 
and to undermine that narrative. He is riding a tiger that he 
has to keep finding an outside target for everybody.
    And that leads into the answer to your question. I think 
that you gave several options, and I think the answer is yes, 
it depends on the situation. There is certainly an issue that 
we have with regard to Russia, as well as China, as 
reciprocity. We permit Russian media to operate here freely 
just as we would because that is our principles, those are our 
principles, and we allow Chinese media to operate freely. 
However, both countries deny our access, either our commercial 
media or our government media. For example, the BBG, for Voice 
of America [VOA], Radio Free Europe, are denied access to 
Russia, and China denies VOA and Radio Free Asia.
    So I think there is an issue of reciprocity, but I also 
think there are elements where there needs to be, if you will, 
a more cyber--or rather a more physical type of attack response 
to their various activities. This is an incursion, it is a 
digital incursion, but I think there are times where a similar 
response is needed, just as much we need to get our message out 
there and make our statements. So the answer would be yes to 
all.
    Mr. Langevin. Okay.
    Mr. Lumpkin. I agree that all of those are very important 
and need to be an area of focus. I would add one more, if I 
could. It would be leveraging our partners. We have many 
partners who see the Russian threat in particular as 
existential, as something they live with every day.
    Last year, I was in Lithuania and had some opportunity to 
talk to people and to get to understand the problem set and how 
they see the world. They have some very talented people who, 
frankly, there are many folks that are just looking for a 
little leadership. And I think it is one of the things we can 
do is to work with our partners to make sure we help build 
their capabilities, because this is a problem much bigger than 
just with us here in the United States. But I think we can 
leverage and lean heavily on our allies to carry a lot of water 
for us.
    Mr. Langevin. Agreed, agreed. Thank you. Well said. All of 
you, thank you very much.
    I yield back.
    Ms. Stefanik. Mr. Scott.
    Mr. Scott. Thank you, Madam Chair.
    And, Mr. Armstrong, you talked about a lot of the issues 
that I had written down, state-owned media versus free press, 
that 24-hour-a-day, 7-day-a-week news cycle where 
sensationalizing and getting it fast is more important to the 
news channels than getting it right. I can't name a journalist 
anymore, to be honest with you. I think that is a greater 
threat to our country than any outside influence.
    But with regard to this type of warfare, if you will, it is 
the exact opposite from a strategy standpoint as traditional 
war from what I can tell. I mean, we have always had--a 
country's capabilities were typically limited by their 
capacity. Capacity could be money, it could be the ability to 
get food and ammo to your soldiers, it could be manpower. 
Geography in and of itself limits a country's capacities. We 
are talking about Russia. You know, I don't think Russia has 
the ability to carry out operations in the Ukraine, Poland, the 
Baltic States, Syria. I don't think their economy allows them 
to do that right now. But their economy does allow them to 
create chaos, and then wherever they see the weakest point or 
the cheapest opportunity, if you will, to take advantage of it.
    And so I have two questions, specifically with offense is 
cheap in this type of warfare and defense is expensive. So with 
that said, how do you limit the capacity of your adversary if 
you are not playing offense? And then two is, do you think that 
Russia has an endgame in mind or do you think that their goal 
is to create chaos and then simply take advantage of whatever 
weak points they see?
    Mr. Armstrong. Thank you for that question. Starting with 
your second question, yes. I think they have an endgame, and I 
think you answered that. I think it is the chaos to allow 
them--they would prefer to set up bilateral relations. They 
would prefer their adversaries or the other nations, Europe, 
not just us, to be in turmoil so that they can seed any message 
they want in there and they can get whatever they want to 
achieve out.
    As far as what is a good defense to an aggressive offense, 
I think this is something where a good offense is a good 
defense. We are--as I said in my testimony, we are on our back 
feet. We are on our heels. We are responsive and reactive. And 
as the comment I made earlier about the Russian media leader, 
we are creating all sorts of opportunities for them. We don't 
have a strategy. As I said in my testimony, we have a 
credibility gap, and that creates not just a domestic 
vulnerability but a foreign vulnerability. When we don't have--
this has been going on for years. When we don't have a clear, 
concise strategy and our adversaries are able to exploit that 
or when they manufacture a gap and we are unable to defend that 
and close that gap by exposing the truth, it is a 
vulnerability.
    So I would go back to my earlier comment that we need to 
understand that this is a priority. This is asymmetric warfare. 
This is on the cheap. It is an ability to gain your foreign 
policy objectives very easily. As the chairwoman said in her 
opening statement, that this is the ability to reach into 
another nation very freely, very easily. So I think we need to 
prioritize this and we need to understand that this is a risk. 
And we can't, as Mr. Lumpkin said, we cannot separate cyber 
data, as I would call it, and cyber psychological. This is a 
merged environment.
    Mr. Scott. So the only way to limit their capacity is for 
us to be on offense, not defense?
    Mr. Armstrong. Well, yes. And I would add, undercut their 
will to act in that way.
    Mr. Scott. Fair enough.
    Mr. Armstrong. If they don't perceive value, there is no 
risk, there is no cost. So I think part of this too is our lack 
of strategy is we have not established an escalation ladder. We 
don't necessarily need to publish that because somebody will 
come right up to it, as they are in hybrid warfare.
    Mr. Scott. Someone may publish it for us.
    Mr. Armstrong. But we don't know when it is too much. We 
haven't decided that. So we don't know when we are going to 
react. And I think the Russians are a perfect example of a 
group that is willing to keep literally and virtually pushing--
--
    Mr. Scott. I am down to 20 seconds. Would you agree then 
that they are not going to stop until we stop them?
    Mr. Armstrong. Agree completely.
    Mr. Scott. Thank you very much.
    Gentlemen, thank you for your service to the country.
    Ms. Stefanik. Mrs. Murphy.
    Mrs. Murphy. Thank you all for being here.
    Mr. Lumpkin, you were recently leading the Global 
Engagement Center at the State Department, an organization that 
was created last year to lead and coordinate the Federal 
Government's counter-propaganda efforts. In your written 
testimony and as you have discussed a bit here today, you 
suggest that the center should be elevated above the assistant 
secretary level at State in order to give the organization more 
authority to direct the interagency.
    What sort of resources and authorities would it take to 
elevate the center to something akin to the Office of the 
Director of National Intelligence? And do you have examples of 
how the current interagency structure prevents us from having 
an effective governmentwide information warfare and counter-
propaganda strategy?
    Mr. Lumpkin. First, I think, let me take the second part of 
that first. What I found as the special envoy and coordinator 
for Global Engagement Center, I had so many peers, so my 
position was relegated to suggesting action. I had no influence 
over budgets, how they spent their money, where they put their 
people, and what was a priority and what was not. In order for 
me to--I had a very good working relationship and we were able 
to do a lot based on power of personality, and based on me 
coming directly from the Department of Defense previously. But 
there are a host of different players in this. You have got 
USAID [United States Agency for International Development], the 
regional bureaus at the State Department, you have got the 
intelligence community [IC], you have CYBERCOM, you have many 
different organizations that have a role here to play. And it 
is just trying to herd those cats to get them to actually do 
what you need to do. That is the problem set as far as 
organization.
    Again, using my analogy, is everybody is rowing the boat 
really hard, just not necessarily in the same direction, which 
impedes forward progress.
    I do believe there are several ways this could be done. I 
think it is best done through legislation, just as what was 
done with the GEC being codified and expanding its mission set 
to include the counter-state and disinformation efforts. I 
think that is generally the best mechanism to get things 
changed to be enduring. So that would be my first--and also 
make sure everybody's got skin in the game, which I think is 
important from a resourcing perspective, and not just leaving 
it up to the executive branch to sort this out, because we all 
own this problem set.
    Mrs. Murphy. And then my second question is about our 
efforts to counter ISIL [Islamic State of Iraq and the Levant] 
propaganda on the internet and to make it harder for them to 
recruit online. To be successful, this effort requires U.S. 
personnel, military and civilian, with the proper linguistic 
skills as well as cultural skills to be able to understand what 
they are reading and engage.
    A recent article about the CENTCOM [Central Command] 
program to counter ISIL's online propaganda indicated that our 
efforts may not be effective or at least as effective as they 
could be. I raised this issue at a previous hearing with 
Michael Sheehan, who ran NYPD's [New York Police Department's] 
counterterrorism operations. Mr. Sheehan said that the Federal 
security clearance process is the real obstacle, which makes it 
hard for qualified linguists to get cleared to do this critical 
work for the Federal Government. He noted that at NYPD, they 
put their linguists in a box, as he put it, so that they could 
do their work without having access to classified information. 
He suggested the NYPD model could be replicated on the Federal 
level. Would you comment on this idea?
    Mr. Lumpkin. I think there is some merit to it. One of the 
authorities that was granted to the Global Engagement Center 
was access--it is leveraging what they call section 3161, which 
is a hiring authority, which allowed the GEC to hire people to 
work in the U.S. Government uncompetitively based on their 
skill sets for a limited term.
    For example, it gave me access to folks in Silicon Valley, 
Madison Avenue, people who were pros in this space, in addition 
to folks who have unique cultural or language capabilities that 
I could--the challenge I always ran into is the security 
clearance requirement, because what I found within the 
Department of State, it takes about the same time to get 
somebody a top secret access to sensitive compartmented 
intelligence as it does a confidential clearance.
    So normally it takes about, I am told, a year to 18 months. 
What I was able to do is, one individual, we were able to fast 
track it, we put a lot of pressure on the system, and we did it 
in 5 months. I know it can be done, but that was a one-off. It 
doesn't happen every time.
    Mrs. Murphy. And do you think that there is a way to hire 
some of these people and box them in such that they don't need 
a clearance?
    Mr. Lumpkin. I think it depends on--I think it can be done. 
It is problematic, especially if you are looking in 
collaborative work environments, where--an information space 
that is very dynamic and is moving in real time. It is very 
hard to go out to a box and get somebody's--it is difficult.
    So, I mean, it is a short-term solution, but it will have 
long-term consequences of not being as productive as it could 
be. A better option would be to find ways to fast track the 
security clearance process to bring the right people in to do 
the mission set that needs to be done.
    Mrs. Murphy. Great. Thank you.
    Ms. Stefanik. Mr. Franks.
    Mr. Franks. Well, thank you, Madam Chair.
    And thank you, gentlemen, for being here.
    You know, I think there is consensus that on the tactical 
level America has very effectively engaged the terrorist groups 
throughout the world. We win the battle on the battlefield, but 
we really haven't engaged them on the strategic level as 
effectively as we should, namely their narrative of global 
jihad.
    And I guess my first question is related to the Global 
Engagement Center. Do you believe that we need to encourage or 
to make sure that the GEC places a greater emphasis on Islamist 
theology and jihadist ideology if it is to effectively counter 
the propaganda success of jihadi groups like ISIS, or is the 
problem just a lack of money?
    Mr. Lumpkin. Well----
    Mr. Franks. Mr. Lumpkin, yes, sir----
    Mr. Lumpkin. Yeah, no, I have looked at this problem set 
quite a bit. And as I look at ISIS, if I look at ISIS and I see 
how they recruit and who they recruit, when they are recruiting 
from abroad, they are generally going after vulnerable 
populations.
    The way I kind of do the math, is there is about 7 billion, 
7.5 billion people on the planet, okay. At the height of ISIS, 
there was about 30,000 of them, 30,000 people. We know how many 
people have been killed, how many people have been wounded, and 
how many people have defected from the battlefield, plus or 
minus, which leads us to a number between 9,000 and 19,000 that 
joined this organization per year.
    When I simplify it like that and I look at--so we have 7.5 
billion people being held hostage by 9,000 to 19,000 recruits 
every year. In order to find those people, we have to use 
scalpel-like messages that resonate with those individuals 
instead of just going after one broad of a--Islamic messages, 
because people join ISIS for different reasons.
    The best study I have seen was done by the group called 
Quantum out of Lebanon, which basically binned those people who 
joined ISIS into nine different bins, everything from death 
seekers to thrill seekers, some are hardcore fundamentalists, 
some are looking for redemption. But each one of those groups, 
when you understand the recruit and you understand the 
audience, you have to target why they joined, and you have to 
come up with messaging strategies against each and every one of 
those groups.
    Mr. Franks. So do you believe that the challenge is just a 
lack of funding or more specifically focusing on those messages 
that you have cited?
    Mr. Lumpkin. I think you have challenges in both. I will 
tell you, in 2015, we--the U.S. Government, did a single 
kinetic strike against a high-value target that cost the U.S. 
taxpayers--when you look at the intelligence gathering before 
and after the strike was about $250 million that had about 2 
weeks of difference of impact on the battlefield to take out 
one high-value target.
    That same year in messaging, we spent about $5.6 million in 
base funding. So we have a discrepancy in where we want to put 
our money. Because I will tell you, I can tell you what your 
priorities are based on where you put your money and where you 
put your people. And in 2015, we weren't resourced 
appropriately. We have made huge strides in a short amount of 
time, but we still have a ways to go.
    Mr. Franks. All right. Well, let me shift gears on you here 
just a little bit.
    To combat the Russian hybrid warfare, do we merely need to 
park armored brigade combat teams in Eastern Europe without 
improving our cyber capabilities or hardening our space assets, 
in order to deter Russia, or do we have to sort of have a 
mirror effort to be able to engage them at and oppose them at 
every stage of their hybrid warfare?
    And that would be Mr. Thomas, I think.
    Mr. Thomas. Congressman, first of all, this is just my own 
personal opinion. I don't think Russia does hybrid war. I know 
a lot of people think they do.
    What we see when we read their press, initially they were 
doing something called new generation war, and that had to do a 
lot with initially pressuring the leaders and then gradually 
working into a regular warfare-type scenario where they 
deployed special forces and then they had more traditional 
combat.
    That term went away in 2013 and has been replaced by the 
diagram that I put in the testimony of new type warfare. I 
think why it is important is because that diagram enables you 
to see a scenario finally, a template of how Russia does 
envision what a future war might look like.
    I certainly understand why many people still ascribe 
Russian efforts as hybrid, because they, from our definition, 
it appears that way. But as we study them, we tend to look at 
the Russian version because that is our job, you know, we look 
at what they write all the time. But ever since that moment in 
2013 or 2015 when this template was proposed, they have been 
using that and the guys who talk new generation now talk new 
type as well.
    So what have they done that would answer your question, 
they tend to--as you know, in this coming year they are going 
to have a big exercise in the western district. They have 
increased their--the number of divisions there; in other words, 
they have increased the correlation of forces there with three 
new divisions.
    I think that General Hodges and others in Europe are doing 
what they can to offer a counter, let them know that if they 
did try to provoke actions or if they did try to come across 
the border, there would be a deterrent to that activity.
    So I think what we are doing at the moment is absolutely 
what is needed. The question becomes when can both sides start 
to pull back, you know, when can we talk about equal security 
where we both feel secure. And like Michael said, how do we get 
them out of this feeling of this existential situation where 
everybody, on both the Baltic side, they feel like they are 
being--their survival is under threat and the Russians 
basically feel the same way.
    Mr. Franks. Thank you, Madam Chair.
    Thank you, gentlemen.
    Ms. Stefanik. Mr. Cooper.
    Mr. Cooper. Thank you, Madam Chair, for an excellent 
hearing, and thank the witnesses.
    Mr. Armstrong, you had mentioned in your answer to, I 
think, Ms. Speier's question that there are other RTs operating 
in the U.S. Can you describe them, list them?
    Mr. Armstrong. Sure. Thank you.
    So you have RT, you have Sputnik, you have Ruptly, and then 
I think you have them feeding other entities, Infowars comes to 
mind, where those are echo chambers for those modalities. I 
would suspect that you have a variety of other groups. There 
was a project I was looking at with some colleagues. We were 
looking at VK, VKontakte, the social media site, the Russian 
social media site where American white supremacists were 
flocking to VK because social media sites in the U.S., like 
Facebook, were kicking them off.
    And what we found was, it appeared that American white 
supremacists were happily involved in discussions there, and 
there were very Russian, not cloaked but Russian actors in 
those spaces as well. So I think this is another insidious way 
of spinning or getting into the conversation. So I think 
besides these larger organizations, there is a lot of stuff 
that they are doing on the margins.
    Mr. Cooper. Are Chinese efforts in any way comparable to 
this?
    Mr. Armstrong. I think the Chinese are more sophisticated. 
RT is willing to play on the margins and play at the extremes, 
and China is a much more sophisticated actor. They are--I think 
if you want to compare which one lies more, which one distorts 
the truth more, I think RT's slogan of ``question more'' fits 
them because they don't want you to find an answer. They just 
want you to be confused.
    And CCTV is a much more intellectual and they are trying to 
push the Chinese view, but I think they do tend to be a more 
professional operation. So I wouldn't equate them, per se, on 
the same level. I don't think that either of them are 
particularly good for the American market.
    Mr. Cooper. Mr. Thomas, I appreciated your detailed 
knowledge of Russian techniques, particularly reflexive 
control. I think you quoted Kennan as saying that the Russians 
don't believe in objective truth. Was that from the Long 
Telegram or some other of Kennan's writings? Do you remember?
    Mr. Thomas. Yes, it was.
    Mr. Cooper. How many other countries do you think have 
leaders that share a similar philosophy of not believing in 
objective truth, whether they articulate that or not?
    Mr. Thomas. Uh-huh. Well, I do think that that is probably 
the situation in China as well because they are strongly 
Marxist as well, and anytime that you look at what is being 
taught in the schools, especially in the propaganda schools, 
they are looking, first of all, at how do I visualize objective 
reality, and then subjectively, how do I manipulate those 
factors to my benefit. That basically is their definition of 
strategy, by the way. So we do see that.
    One other thing I could add to what Matt said is that when 
you look at Chinese propaganda in the United States, it is 
interesting that you do see a subtler aspect like Sun Tzu 
institutes where language is being taught in 39 or so 
universities.
    And you also see--I remember the last time I stayed at a 
hotel here in Washington. There were two newspapers offered to 
me in the morning, the Washington Post and the China Daily. And 
when you start to see that, you realize that there--in one of 
the books I wrote the Chinese did say point-blank that they 
needed to take over the cultural environment in other 
countries. And so there is an effort underway, with CCTV and 
others, to more gradually, I think, than the Russian version, 
which is quite dramatic and offensive.
    Mr. Cooper. I don't know if any of you gentlemen have seen 
the movie ``Occupied.'' It is a 10-part European series about 
the takeover of Norway by Russia on energy issues. It was very 
subtly done. I find when I am explaining defense policy to 
folks back home, it is easier if I refer to a movie they might 
have seen because they tend to have such disbelief and they 
don't read newspapers.
    So any popular materials you could suggest to us that might 
help average people understand would be very useful. Thank you.
    Thank you, Madam Chair.
    Ms. Stefanik. Thank you, Mr. Cooper.
    We will now go to the second round of questions for those 
members who want another opportunity.
    My question, I will start with Mr. Lumpkin. Some have 
advocated for the creation of a U.S. Information Agency 2.0, 
bringing together the technical capabilities of cyber with some 
of the traditional information and communications component. Is 
that something that GEC, the Global Engagement Center, can 
build into? What is your opinion on that, having headed the 
Global Engagement Center, on whether that is a viable proposal?
    Mr. Lumpkin. I think that there is merit to a USIA, U.S. 
Information Agency-like organization. I am loathe for more 
bureaucracy. So what I would like to do is to envision 
something that is more above the bureaucracy that can leverage 
what is already happening in government and get it to work 
better together and to make sure it is fully resourced, both in 
moneys and people.
    But I do believe that we have significant capability in the 
U.S. Government; we just have to harness it, and, again, do 
that without creating too much bureaucratic tension or 
significant expense.
    Ms. Stefanik. And just to delve a little bit further into 
that, harnessing the capabilities we have today, can you talk 
about specific steps we can take to continue to mature the 
Global Engagement Center or continue to provide the resourcing 
that is necessary; and then the third piece is making sure that 
there is interagency communication rather than interagency 
friction.
    Mr. Lumpkin. I think you can do that by elevating the 
Global Engagement Center within the Federal Government and 
increase its authority by doing so. I think that will do that. 
I do believe that there are several other things that can be 
done. I think having access to key talent, the 3161 hiring 
authority, which is only through the executive order, so if 
that executive order were to go away, the 3161 hiring authority 
would go away as well.
    So--and that authority, because the executive order was 
only for the countering violent extremist mission set, the 
interpretation is that it can only be used for that mission 
set. So you cannot use the 3161 hiring authority for the 
counter-state and disinformation efforts mission set within the 
Global Engagement Center.
    So I think those are some key things that can be done. The 
other thing of significance is the GEC does not have a 
dedicated budget line. So it was funded largely through public 
diplomacy dollars, but it was up to the discretion of the 
senior leadership at the State Department on what that budget 
line would be from year to year. And there is a lack of 
stability in that funding, so it is hard to make long-term 
decisions, and it is also difficult to use that color of money, 
that type of money, that public diplomacy money to build 
partner capacity, to teach our partners and make our partners 
effective in this space. Because the more they do, the less we 
have to.
    Ms. Stefanik. Mr. Armstrong or Mr. Thomas, do you have 
comments on that line of questioning?
    Mr. Armstrong. I do. Thank you.
    The notion of a new USIA I found very difficult to stomach, 
because as I have written about, USIA was created as a part two 
of a two-part reorganization of government by Eisenhower. And 
unless we are going to reorganize government, it is going to be 
really difficult to just recreate this thing because it was a 
simpler communication environment. It was also a simpler 
government. We have a much more complex space.
    I would echo Mr. Lumpkin's comments, but I would also add 
that we are ignoring that there is an office in the State 
Department now that I think GEC, in some ways, and its 
predecessor CSCC [Center for Strategic Counterterrorism 
Communications], was trying to not just augment but in a way 
bypass or replace, and that is the Office of the Under 
Secretary of Public Diplomacy and its operation the Bureau of 
International Information Programs, which is the true legacy of 
United States Information Agency in that it was a global 
information center.
    It does not have the flexibility either because of 
authority or leadership to do these things, and so CSCC was 
stood up and I think this recent GEC amendment, which 
originally took shape as the Portman-Murphy amendment, which 
was intentionally bypassing R, the Under Secretary for Public 
Diplomacy, I think it should be a wakeup call that R is not 
executing within the Department, it is marginalized within the 
Department. It is not executing what you need as far as foreign 
policy and national security.
    And as Mr. Lumpkin just said, even the money within there 
and with the--both the authorities and the leadership, it has 
been a challenge to properly support GEC.
    And what is interesting, and this goes into what Ranking 
Member Langevin started to--accidentally started to say ``State 
force structure,'' I think there is a need to dramatically 
review the State Department's force structure along these 
lines, because one of the realities is that State Department 
has forward presence everywhere, everywhere. They have local 
expertise everywhere, and they are dramatically underfunded, 
undersupported. They are not experiencing these type of 
hearings. They don't have the same oversight. And, you know, 
they are out there on the ground utterly underfunded, 
undersupported, and not trained.
    I would like to add too, is that while the Russians are 
training their foreign service in--we can call it next 
generation warfare or we can call it hybrid warfare, but they 
are training their foreign service in this regard.
    And I met with some of their version of FSI [Foreign 
Service Institute], MGIMO [Moscow State Institute of 
International Relations], and they were citing Frank Hoffman, 
one of our military writers on this, and they were wondering 
why Frank is so militaristic. But this is their civilian side, 
and we have no comparable support to our foreign service or our 
foreign ministry.
    Ms. Stefanik. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you. That was an interesting 
perspective. And on that, I would ask Mr. Lumpkin if he had 
anything to add to what Mr. Armstrong just had to say about the 
State Department?
    Mr. Lumpkin. I only have 1 year of experience at the State 
Department, so my perspective is probably not--it is not as 
robust as my time in the Department of Defense. That said, 
people who know me know that I am not a huge fan of 
bureaucracy. I am not. I appreciate the need for it to 
standardize routine tasks.
    I had thought I had seen bureaucracy at the Department of 
Defense until I got to the State Department. It is much 
thicker, much more ingrained. Wicked smart people, amazingly 
smart people, but I affectionately refer to the State 
Department as a 19th century bureaucracy using 20th century 
tools against a 21st century adversary. And we have to do 
better.
    Mr. Langevin. Thank you.
    This is a question for all of our witnesses: How can we 
better leverage technological advancements to counter IO 
activities of other nations? Specifically, how can the U.S., 
particularly the Department of Defense, spur innovation and 
obtain new technological capabilities?
    Mr. Lumpkin. I would like to take that one. There is a lot 
of--especially in the world of analytics, there are tremendous 
number of tools. Last time I looked, there was between 3,400 
and 3,800 analytic tools just on social media alone. It is an 
area of technology and science that is emerging every day, that 
is continuing to advance and to iterate itself.
    What we have to do is to find ways to streamline access to 
those tools so we can get them put on U.S. Government systems. 
We are talking information technology systems, computer 
software, to get those implemented. So we need to fast track or 
streamline access to those because they are changing so fast.
    And the social media environment and the media environment 
writ large is changing so rapidly, what we find ourselves 
frequently doing is putting 2-year-old tools into the workforce 
because that is how long it takes to get approvals to use them 
in many cases. So we have to find and streamline to keep up 
with technological advancements and leverage those things that 
can make our workforce more productive, more effective, and so 
we can speed our messaging capabilities.
    Mr. Armstrong. Can I add to that. I would say, one, we have 
to understand what we want to achieve. I think simply ``stop 
it'' is inadequate. I think we need to have a broader strategy, 
and I think we need to have a cost. We need to impose a cost on 
them to continue to conduct these activities, and I don't see 
that that is part of our process.
    Mr. Thomas. If I might add just one or two things quickly. 
Russia has developed what they call science companies. They 
have got about 10 or 11 of them now within the military. Those 
science companies unite new, young brains with the older guys, 
and they are learning from one another about electronic warfare 
and programming and these sort of things.
    They also have an advanced research foundation, which is--
they have created. It is similar to DARPA [Defense Advanced 
Research Projects Agency]. But they are into all of the things 
that DARPA is and robotics and UAVs [unmanned aerial vehicles] 
and all of these type of issues as well.
    And perhaps most important of all has been the Russian 
education system. They continue to churn out incredible 
mathematicians and algorithm writers. And as anyone knows, you 
know, the key to software is in search engines, is algorithms 
and what it produces. And those are the--there is a high-tech 
capability there that they have invested in for sure.
    Thank you.
    Mr. Langevin. Sure. I don't disagree with that at all. 
Point well taken.
    So this is more of a longer term issue, well short and long 
term. But to all witnesses, so the U.S. has struggled with 
gauging the effectiveness of our own messaging and other IO 
efforts. In your opinion, how can we improve U.S. ability to 
measure effectiveness of IO activities and overall impact of 
operations?
    Mr. Lumpkin. This goes back to the analytic tools I was 
talking about, is to making sure we have access to them and 
also make sure that any strategies we develop and as we move 
forward especially in the counter-state propaganda and 
disinformation space is that they have to be underpinned with 
analytics.
    And it is not just assessing whether your message is 
effective; if it is not, is how are you going to change it 
rapidly, reassessed and--and change and change. Because at the 
speed of information it has to constantly be iterated for the 
consumer to keep up with the 24-hour, 7-days-a-week, 365-days-
a-year news and information cycle that is out there.
    So I think the data is key to both what we do every day and 
how you stay relevant in this space.
    Mr. Langevin. Thank you.
    Ms. Stefanik. Mr. Cooper.
    Mr. Cooper. Thank you.
    I would like to explore for a second the extent to which 
your worlds intersect with liberal arts academics in this 
country. Like, there are lots of theories on social cohesion, 
social capital, trust in the society, things like that. The 
work of Robert Putnam or anybody like that mean anything to you 
guys, or is that just----
    Mr. Lumpkin. I think one of the keys for the Global 
Engagement Center is there is several academic affiliations 
where you look at--because this is about behavior, right, when 
it is all said and done. It is about creating cognitive 
realities for people, whether it is based on logic or it is 
based on emotion, to change their ultimate behavior. So the 
behavior aspects of this are pretty much everything when it is 
said and done.
    Mr. Cooper. That is why I am asking the question. He is 
more on the sociology side. On the behavioral economics side 
there are folks like Daniel Kahneman, won the Nobel Prize. 
There are theorists like Jonathan Haidt wrote the ``Righteous 
Mind: Why Good People Fight Over Politics and Religion.'' Do 
you intersect with these worlds at all?
    Mr. Lumpkin. The GEC does, absolutely, and myself as a 
recovering anthropologist before I actually joined the United 
States Navy many years ago, so I have a deep-seated 
appreciation for the impacts of anthropology, sociology, and 
the other liberal arts, and the effects of what we are trying 
to actually do, so yes.
    Mr. Cooper. So it's true that you can't conduct a public 
opinion poll in Russia or presumably in China? Is that right?
    Mr. Armstrong. So because they are difficult spaces to get 
into, there is one--I think there were two, but there was one, 
Levada, which was essentially the well-known Russian 
independent public opinion center. If memory serves, there was 
something that happened that caused relatively recently that 
they are no longer viewed that way, because--so it is difficult 
to do surveys in Russia. And China, I am not sure what our 
capacity is.
    Mr. Cooper. It seems like an environment in which there is 
no trusted source, and that seems to be increasingly true in 
this country, like I spoke at Rotary in Nashville this Monday, 
and I have said that, well, 17 U.S. intelligence agencies 
agreed there was some sort of Russian involvement in our 
election. We don't know the extent or whether anybody was 
persuaded, but at least they tried. And I got a lot of pushback 
from Rotarians who said, well, why do you believe those guys. 
Like shouldn't unanimity among 17 U.S. intelligence agencies 
mean something to the average patriotic citizen?
    Mr. Armstrong. So going to your earlier question, I think 
there is a marketplace for loyalty that is evolving here, and 
there is a redefinition of citizenship and national security 
and nationalism, of who do you trust? Where is your alignment? 
In that particular situation, what I am about to say doesn't 
apply, but in the broader sense, you can now test drive another 
identity.
    This goes into your behavioral concepts. You can now test 
drive an identity, and nobody has to know about it. You can 
reconnect with a vast culture that you have no connection. As I 
mentioned in the opening remarks about Jihad Jane, you can have 
no affiliation, ethnic, cultural, linguistic and decide you 
want to be part of something.
    So there is an element here that is evolving our notion of 
hyphenates to commas where you can carry multiple identities at 
once. And from a marketing perspective, each one of those is an 
opportunity for me to subvert you and do something.
    So I think that there is a challenge here that is playing 
within our trust scheme as well, even if it is not an outside 
actor, but who do we trust. I think this goes into the 
polarization of news. So we are continuing to subdivide, and I 
see nothing that is moving to reverse that pathway right now.
    Mr. Cooper. In the newspaper today, they say that the 
German Government is considering imposing a 50,000 euro fine or 
something for fake news on the German internet. Do you know of 
any country that has done something like that?
    Mr. Armstrong. Well, one, each nation has a different 
relationship to the news. Our--such an act in our society would 
be very, very difficult. There is a comparable--each of the 
Baltic States, I think, have similar. They have tried--was it 
Estonia? No, it was Latvia that actually shut down Russian TV, 
and they continued to make efforts like that.
    Britain has Ofcom, which is their regulatory for TV 
broadcast. They recently shut down RT's London U.K. bank 
account under those regulations. Now, that just covers 
broadcast so it doesn't cover internet.
    So each nation has a different relationship to what news is 
flowing within their environment, so the answer is, yes, it 
does pose interesting challenges in various places because it 
can become a propaganda coup against that state.
    Mr. Cooper. Thank you, Madam Chair. I see I have used my 
time. Thanks.
    Ms. Stefanik. Ms. Speier.
    Ms. Speier. We just got word that the President has 
recommended a 28 percent cut in the State Department.
    Mr. Cooper. Thirty seven percent.
    Ms. Speier. Well, I heard 28, but--and I think there is a 
belief by some that by cutting that and cutting foreign aid 
that we are somehow not impacting our national security. And I 
think, Mr. Thomas, you had commented earlier, and I would like 
you to explore for us the impacts on national security, cuts to 
foreign aid and information distribution in foreign countries, 
as anemic as it is for us, how that will affect our national 
security.
    Mr. Thomas. Congresswoman, I don't think I can answer that 
question properly. I think I would rather defer to a State 
Department person.
    Ms. Speier. All right. Mr. Lumpkin.
    Mr. Lumpkin. I think a cut of that magnitude would have 
devastating consequences on everything from the goodness that 
the State Department does from Fulbright scholarships that 
help, you know, bring people and access people and bring the 
world closer together and have people understand who we are as 
a nation and what our values are and what we believe.
    I know that on--I just look at, from my time at DOD in 
conjunction with the State Department, we are not going to kill 
our way to victory. We are not going to message our way to 
victory. This is about having a layered approach to what we do, 
and you cannot cut--make a 37 percent cut to a single 
department that has such a crucial role without having 
devastating consequences.
    Ms. Speier. Mr. Armstrong.
    Mr. Armstrong. So I think, like Mr. Lumpkin, we would both 
say that the State Department is a dysfunctional place and full 
of bureaucracy. That said, it needs to be revamped rather than 
massive cuts. Even elements such as exchanges, they 
historically have been part of the United States Government's 
efforts to win or engage in the struggle for minds and wills by 
developing local capacity.
    Getting them to understand--getting the exchange 
participants to understand the United States better is really 
secondary or even tertiary. It is about building local 
capacity, inoculating against adversarial information or 
experiences.
    So you add to that various other efforts, even the broader 
public diplomacy realm or the various efforts in global affairs 
or even their elements of counterterrorism or the narcotics, 
INL [Bureau of International Narcotics and Law Enforcement 
Affairs], there are a tremendous number of activities there 
that are operating in a silo.
    And I think they do not just further our foreign policy in 
the economic sense and societal sense but definitely contribute 
to developing partner capacity on the ground.
    Ms. Speier. I am going to interrupt you for a moment 
because I have only got a minute 30, and I want you each to 
answer this question. I serve on the House Permanent Select 
Committee on Intelligence, as does Ms. Stefanik. What message 
would you want to convey to the members of that committee in 
terms of the Russian influence and its potential impacts in 
this country?
    Mr. Armstrong. That it is severe, we are underestimating 
it, and there is no cost to the Russians for them doing it.
    Mr. Lumpkin. And mine would be to reinvest the IC in their 
capabilities to monitor, detect, and understand what the 
Russians are doing.
    Mr. Thomas. And I would add that it is probably just 
unknown here just how insidious, if that is the right word, the 
effort is in other countries overseas. I know there was one 
country in the Baltics who said propaganda and information 
influence is like carbon monoxide. It is colorless, it is 
odorless, and it comes in and does its job.
    And it is a very interesting way to think about how 
propaganda is being used over there, especially in those 
countries where when a TV, a cable package is put together and 
within that package is Russian TV so that those people are 
getting simply a different point of view that is in key areas 
too, it is along the borders there with Russia. So there is 
much to consider there.
    Ms. Speier. Thank you.
    Thank you, Madam Chair.
    Ms. Stefanik. Thank you to all of the members from both 
sides of the aisle for such thoughtful questions. As you can 
see, there is an increased interest in these important issues.
    I want to also thank our witnesses, Mr. Armstrong, Mr. 
Lumpkin, and Mr. Thomas. We look forward to continuing working 
with you as we begin the process of this year's NDAA, and thank 
you very much for your testimony today.
    The meeting is adjourned.
    [Whereupon, at 5:54 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 15, 2017

     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. If we are to take seriously the threat posed by 
Russian, Chinese, and jihadi information operations seriously, is the 
GEC the appropriate institution to combat these aggressive (and 
successful) information operation strategies? What reforms or changes 
should be made to the GEC to make it more effective--or should we 
create a new entity for this mission?
    Mr. Armstrong. Thank you for this question. The informational 
element is not a sideshow. It is at the heart of international affairs. 
The kinetic effect of a bullet or bomb is often secondary to the 
informational effect. At its core, terrorism is an informational act. 
Our adversaries, from Russia to China to Iran to ISIS, understand that 
success in the informational, or more specifically the psychological or 
cognitive, domain is central to a successful offensive and defense. We 
must begin to accept this reality.
    The GEC was established as an interagency hub within the State 
Department to provide a point of leadership--and accountability--for 
the Government's response to adversarial information activities. The 
majority of the staff are from the interagency--mostly from the Defense 
Department--with few from the State Department. Its ability to 
coordinate, let alone affect and effect, actions within the State 
Department and the interagency is limited.
    The GEC has and continues to face resistance from elements within 
the Department that perceive GEC as not a part of the Department's 
mission. Several functional and geographic bureaus do not understand or 
accept how the GEC supports the Department. The reasons are numerous: 
an ossified State Department bureaucracy and operational culture; 
confusion over the Department's role in national security; questions 
over authorities, questions on what tactics may and should be used; 
and, a remarkable lack of leadership support from outside of GEC, 
including from past Secretaries, senior staff, and other Under and 
Assistant Secretaries.
    These challenges will not be irrelevant by creating yet another new 
entity without addressing the fundamentals that led to the creation of 
CSCC and GEC, based on a faulty vision of tactics and poorly defined 
mission, both of which limited any possible effectiveness. These same 
barriers caused ripples that negatively influenced interagency 
partners' willingness to work with and support the GEC. At this time, 
there are no indications that any of the GEC's limitations have been 
removed or will be soon.
    The function of an organization like GEC (though GEC's mission, in 
all aspects, is too narrowly defined) should remain inside the State 
Department. The expeditionary, long-term approach of the State 
Department, it's ground presence in nearly every nation on the planet, 
and its fundamental role in our foreign policy and national security 
makes the Department the best location for an operation like the GEC.
    I have two recommendations. They are not exclusive in that they 
may, and should, be pursued simultaneously.
    First, there is an existing operational and integrative hub for 
global informational and in-person engagement in the Department: the 
Under Secretary for Public Diplomacy and Public Affairs. However, only 
one of the eight persons to hold the office since it was established in 
1999 (the office has been vacant for nearly 30% of the time since 
then), none have been adequately prepared, directed, or supported to 
fulfill a role of coordinating, integrating, and supporting U.S. 
Government-wide global engagement. An Under Secretary will wield 
substantially greater influence than a ``coordinator'' or ``Special 
Envoy.'' This existing Under Secretary has direct or indirect control 
over a nearly $1b budget, which contains the bulk of the USIA's former 
informational (short-term and long-term) engagement capabilities. 
However, this Under Secretary faces similar redundancies and turf-
protecting (and building) that the GEC met, and has done so without 
leadership support to overcome these limits to better support our 
foreign policy, national security, and support to interagency partners 
for the same.
    Congress must address the systemic deficiencies at the State 
Department as it is the right home for the required hub. The original 
Portman-Murphy proposal in the Senate was intriguing as it could have 
been a spark to cause a substantial reconsideration of the poor 
organization, misalignment, and disconnectedness of various overlapping 
Department efforts while undoing the forced segregation of 
``information'' from the rest of national security and foreign policy 
structures and bureaucratic cultures.
    I am not aware of a single Congressional hearing or clear mandate 
by a Secretary of State or President to empower and hold accountable 
this Under Secretary to fulfill the role embedded in it when it was 
created following the abolishment of USIA in 1999. The GEC, like the 
Center for Strategic Counterterrorism Communication it replaced, and 
the Portman-Murphy bill proposed in the last Congress, are direct 
responses to the failure of this Under Secretary to perform a function 
too many have forgotten it is positioned and resourced to execute.
    Second, I recommend the Congress reconsider the ``Political West 
Point'' idea of an organization that provides analysis and training for 
adversarial informational activities that State Department, Defense 
Department, and other agencies, as well as relevant private sector and 
friendly nation governments and civil society actors, can attend. The 
name for this ``Political West Point'' was the Freedom Academy when it 
was introduced in Congress in the late 1950s, though a different name 
may be useful today. Such an organization would address the underlying 
resistance derived from a denial that information is anything but a 
sideshow to the other three core elements of national power: Diplomacy, 
Military, and Economic. The ``D,'' ``M,'' and ``E'' are not coequal 
with the ``I'' of information, but rely on Information for their 
effect. Further, on the military side, the lack of appreciation of the 
centrality of informational activities have permitted, if not 
encouraged, military public affairs officers to aggressively segregate 
themselves, and their advice, from the military's trained information 
professionals. At the State Department, this will help break down the 
cultural divide between the Public Diplomacy cone (where ``cone'' is 
the Department's loose equivalent the military's ``MOS'') that 
information is a key facet of international affairs. It would also 
benefit the military through an increase informational training for 
MOSs not directly involved in information (i.e. look beyond Information 
Operations, Psychological Operations, and Civil Affairs), as would 
other agencies, from Agriculture to Treasury to AID. This would provide 
some of the analytical support GEC presently strives to deliver, and 
operate similar to and likely with West Point's Combating Terrorism 
Center. This Academy would be a repository for the collection and 
analysis and training on adversarial tactics, techniques, and 
procedures across the psychological and cognitive domains, including 
the cross-over to the physical domain.
    Thank you for the opportunity to respond to the question. I look 
forward to discussing this issue in greater detail with you.
    Mr. Franks. If we are to take seriously the threat posed by 
Russian, Chinese, and jihadi information operations seriously, is the 
GEC the appropriate institution to combat these aggressive (and 
successful) information operation strategies? What reforms or changes 
should be made to the GEC to make it more effective--or should we 
create a new entity for this mission?
    Mr. Lumpkin. The GEC is currently the most viable institution in 
the Executive Branch of government to lead and direct efforts to 
counter the threat posed by Russian, Chinese, and Jihadi information 
operations. That said, the GEC continues to face significant challenges 
to fully realize its potential in addressing these threats. 
Insufficient funding, manpower, and support coupled with the thick 
bureaucratic layers at the State Department have historically hampered 
effective operations.
    Four principle things can be done to make the GEC significantly 
more effective;
    1.  Increase funding to the GEC and provide it a dedicated funding 
line.
    2.  Significantly increase the assigned manpower.
    3.  Elevate the GEC in status at both the Department of State and 
within the Interagency and authorize it to ``direct'' U.S. government 
efforts to counter both State and non-State actor threats in the 
information environment.
    4.  Ensure the GEC has aggressive leadership with a proven track 
record of success operating in the interagency.
    Mr. Franks. What specific steps must we take to combat Russian 
hybrid warfare: Do we ultimately need to oppose them at every stage? 
For example, if we merely park armored brigade combat teams in Eastern 
Europe but do not improve our cyber capabilities or harden our space 
assets, will Russia be deterred?
    Mr. Thomas. The basis for my response utilizes contemporary Russian 
open source military thought, and not the mirror-imaging of U.S. 
concepts onto Russian activities, which is the type of analysis many 
U.S. analysts incorporate. Russia's military leaders state often that 
it is the U.S. who developed the term hybrid war, and it is the U.S. 
who is using this concept to confront Russia. Westerners, on the other 
hand, state that Russia is using hybrid techniques. The Russians 
themselves state that they tend to depend on ``new-type'' warfare 
methods, the outline of which is attached [see graphic below]. Russia's 
chief of its Main Operations Directorate stated in 2015 that 
``nonstandard forms and methods are being developed for the employment 
of our Armed Forces, which will make it possible to level the enemy's 
technological superiority. For this, the features of the preparation 
and conduct of new-type warfare are being fully used and `asymmetric' 
methods of confronting the enemy are being developed.'' After 
determining vulnerable areas, Special Forces, foreign agents, 
information effects, and other nonmilitary forms of effects are used in 
each conflict, with each involving a different set of asymmetric 
operations (coordinated with respect to targets, location, and time, a 
combination of asymmetric and indirect actions).''


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    .epsRussia's new-type warfare method has several apparent phases 
(none of which are numbered) that ratchet up confrontations 
incrementally. The U.S. should confront Russia at every stage of this 
template and attempt to ensure the phase involving classical war 
methods is never reached. The initial phase of new-type warfare would 
be the best time to confront Russia, when we are only dealing with 
various types of deterrence methods (information, psychological, etc.), 
diplomatic pressure, and propaganda means before actual confrontation 
evolves. We are clearly in this phase now, which involves posturing and 
threats. We should do all in our power not to move beyond this phase. 
However, if this phase fails, then new-type war's next phase involves 
the covert deployment of special operations forces and cyber-attacks, 
and the use of heretofore unnamed types of new weapons systems. This 
would be a real step toward actual fighting and the absolute last 
chance before, according to the Russian General Staff's new-type 
warfare scenario, classical warfare methods begin. As long as President 
Putin views an existential threat to Russia, I do not believe that 
Armored Brigades in Eastern Europe will deter him, nor will hardening 
space assets. He will find a way to asymmetrically, as the Russian 
military has stated, threaten the U.S. Perhaps these ways have already 
been prepared and are ready for use or exploitation. I do not believe 
he wants his military to conduct combat operations against NATO or the 
U.S., but I also believe he is prepared to use them if necessary. Of 
recent importance is that a major discussion of the term ``war'' is 
underway among Russia's military elite. This debate must be followed 
closely as perhaps new types of warfare methods are under serious 
consideration. For example, the military's emphasis on ``nonstandard,'' 
``asymmetric,'' and ``nonmilitary'' methods should be watched closely 
for indications of their future application in war.
    The views expressed in this response are my own and do not 
necessarily reflect the views of the Department of the Army or 
Department of Defense--Mr. Timothy Thomas.

                                  [all]


</pre></body></html>
